r.

"\

n

i

f

*

No.

n n ^

t

pn

■

V^’ L

l.

L v.'u

In The
Supreme Court of the United States of America

L< —*

Vj *_J

S'

OFFir.c: i

t

MICHAEL RAMON OCHOA,
Petitioner, pro se,
v.
Dr. Arthur Levine, et al,
Respondents.

On Petition for a Writ of Certiorari
To The Pa. Supreme Court at 134 WAL 2019;
The Pa. Superior Court at 326 WDA 2019;
and The Allegheny County, Pa. Civil/Commerce and Complex Litigation Center at
GD-13-011757.

PETITION FOR WRIT OF CERTIORARI

Michael Ramon Ochoa
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
November 07, 2019

i

Lx *»— ■!

1

QUESTIONS PRESENTED
1.

The questions posed in the course of appellate actions at FD-07-000190 were

made cognizable by stipulation of all represented parties, i
Each question should be regarded as if entered here in its entirety.2
2.

Does Exhibit F. The Hill School Converstations sufficiently represent the facts

supporting civil conspiracy and 42 Pa. C.S. §8344 Defamation?6
3.

Would those claims of civil conspiracy or defamation be irreparably lost per

Pa.R.A.P. §313(b) Collateral Orders if this appeal is not heard?4
4.

Would the underlying criminal complaints or data about my beloved ninas

perdidas be irreparably lost if this appeal is not heard?
5.

Was that the intention of the trial court?

6.

Would this perverse outcome further erode Pa. Constitution Article 1§11 or U.S.

Constitution Article IV§1?
7.

Why didn’t the Hon. David Wecht participate in this decision?

8.

Do either 18 U.S.C. §1346 or U.S.C. §1961 provide remedy for the problem of

Thrasymachusl Does the #NewOrganonl
9.

Could all of this damage be mitigated by ordering the trial court to hear

04-25-19 Amended Complaint?6
1 See attached Exhibit G. Items of Judicial Notice or https://www.academia.edu/38126093/
Exhibit_G._Items_of_Judicial_Notice
2 See attached Exhibit H. Questions or Aporia or https://www.academia.edu/39906428/
Exhibit_H ._Questions_or_Aporia
3 See attached or https://www.academia.edu/38126090/Exhibit_F._The_Hill_School_Conversations
4 For definitions of civil conspiracy see: Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth.
2007), and Reading Radio, Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003).
5 See attached Exhibits E-F or download directly at https://www.academia.edu/
38953832/04-25-19_Amended_Complaint

11

LISTS OF PARTIES AND RELATED PROCEEDINGS
Contact information for the petitioner is on the cover. The complete list of
respondents is attached as Exhibit A. Defendants at App.37-39, with redacted updates
downloadable at: https://www.academia.edu/38126065/Exhibit_A._Defendants
The 01-23-19 trial court order under appeal here was limited to issues involving:
Defendant 23

Chairman of the Board of Trustees Preston G. Athey

Defendant 24

Headmaster Zachary Lehman

Defendant 25

The Hill School

Defendants 23, 24, 25 are represented by:
Scott G. Dunlop, Pa. I.D. #41638
Grant H. Hackley, Pa. I.D. #206141
Marshall Dennehey Warner Coleman & Goggin
501 Grant Street, Suite 700
Pittsburgh, PA 15219
412-803-1140
A list of all proceedings in state and federal trial and appellate courts, including
proceedings in this Court, that directly arise from the same 250 Root Facts of this case
in this Court are now attached to every significant filing as Exhibit G. Items of Judicial
Notice, which can be found at App.46, with updated .pdf versions linked to the Root
Data at: https://www.academia.edu/38126093/Exhibit_G._Items_of_Judicial_Notice

Ill

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

STATEMENT OF THE CASE

3

REASONS FOR GRANTING THE PETITION

4

CONCLUSION

5

♦
INDEX OF APPENDICES
Appendix A. Decision of State Court of Appeals Quashing the Appeals
03-25-19 326 Quash Sua Sponte

App.l

Appendix B. Decision of State Court of Appeals Denying Rehearing
04-09-19 326 Reconsideration DENIED

App.2

Appendix C. Decisions and Opinions of State Trial Court on Appeal
01-23-19 Defendants 23, 24, 25 DISMISSED
03-15-19 Reconsideration DENIED............

App.3
App.4

Appendix D. Decision of State Supreme Court Denying Review
09-16-19 134 WAL 2019 Petition DENIED
Exhibits Dashboard
Root Facts.............
Exhibits A-I...........

App.5
App.6
App.7-36
App.37-48

IV

TABLE OF AUTHORITIESe
Pennsylvania Cases
Weaver v. Franklin County, 918 A.2d 194, 202 (Pa.Cmwlth. 2007)

l

Reading Radio, Inc. v. Fink, 833 A.2d 199, 212 (Pa.Super. 2003)

l

Pennsylvania Statutes and Constitution
42 Pa.C.S. §8344 Defamation

i

Pa.R.A.P. §313(b) Collateral Orders

i

Pa. Constitution Article 1§11 Courts to be open

i, 2

U.S. Supreme Court Cases
U.S. Supreme Court 12-10508 Ochoa v. Rubin

5

U.S. Statutes and Constitution
18 U.S.C. §1346 Definition of “scheme or artifice to defraud

i,2

18 U.S.C. §1961 Racketeering influenced and corrupt organization

i, 2

28 U.S.C. §1257(a) State courts; certiorari

1

U.S. Constitution Article IV. Section I. Full Faith and Credit

i,2

6 .pdf versions of this document contain hotlinks to full texts of all citations.

1
<Mcd|pj

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the
judgements below.

♦
OPINIONS BELOW
The opinions of the highest state court to review the merits of this case appear
at App.1-2 as Appendices A-B. The orders and opinions of the trial court appear at
App.3-4 as Appendix C.
All related court actions, as well as state and federal law enforcement complaints
and USPS priority mail service records, are included in the Root Data:
https://www.dropbox.com/sh/yvt5jv2dim5fklq/AdENY_UOJt

♦
JURISDICTION
The date on which the highest state court decided this case was 09-16-19.
A copy of that decision appears at App.5 as Appendix D. A petition for rehearing was
not filed. The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
The Constitutional and Statutory provisions previously presented to this Court
should be regarded as if entered here in their entirety, especially:*
Pa. Constitution Article 1§11. Courts to be open
All courts shall be open; and every man for an injury done him in his lands,
goods, person or reputation shall have remedy by due course of law, and right and
justice administered without sale, denial or delay.
18 U.S.C. §1346. Definition of “scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or artifice to defraud”
includes a scheme or artifice to deprive another of the intangible right of honest
services.
18 U.S.C. §1961 Racketeering influenced and corrupt organizations
(1) “racketeering activity” means (A) any act or threat involving murder,
kidnapping, gambling, arson, robbery, bribery, extortion, dealing in obscene matter, or
dealing in a controlled substance or listed chemical (as defined in section 102 of the
Controlled Substances Act), which is chargeable under State law and punishable by
imprisonment for more than one year;
Also:
U.S. Constitution Article IV§1 Full Faith and Credit
Full Faith and Credit shall be given in each State to the public Acts, Records,
and judicial Proceedings of every other State. And the Congress may by general Laws
prescribe the Manner in which such Acts, Records and Proceedings shall be proved, and
the Effect thereof.

1 https://www.academia.edU/36286355/U.S._Supreme_Court_Conversations

3

STATEMENT OF THE CASE
Having reason to believe that Defendants 1,10,11,12,13 had lied to the trial
court at FD-07-000190 about the whereabouts and well being of my beloved ninas
perdidas, I included Defendants 23, 24, 25 in service of a criminal complaint to state
and federal law enforcement.2
After receiving that information, Headmaster Lehman continued to take money
from Defendant 1 in Allegheny County, which is traceable to the theft by fraud of title
to my home for autistic adults in the Bronx by Defendants 1,10,11,12,13. He then
looked the other way as his own ill considered words were used against me at
FD-07-000190 by Defendants 1,10,11,12,13, while continuing to “gaslight” my
beloved ninas perdidas.3
And while I genuinely appreciate the care which I am sure that Defendants 23,
24, 25 showed to them, nevertheless, their words and deeds continue to do harm to the
souls of

and irtp^A It is my sincere hope that Headmaster Lehman will realize

that this course of action is contrary to the governing principles of the Hill School, and
that these Defendants will voluntarily join me in friendship to pursue remedies which
are compatible with the facts and the laws.

2 See attached Exhibit I. U.S. Law Enforcement Conversations or https://www.academia.edu/40699190/
Exhibit_I._U.S._Law_Enforcement_Conversations and 05-22-14 DHHS OIG at https://
www.academia.edu/31152815/05-22-14_DHHS_OIG
3 See attached Exhibit F. The Hill School Conversations or https://www.academia.edu/38126090/
Exhibit_F._The_Hill_School_Conversations
4 https://www.academia.edu/27342383/Gemelli

4

REASONS FOR GRANTING THE PETITION
Anticipating the dangers that I faced in reporting systemic corruption and
abuse within the human liver transplantation program of the Starzl Institute to the
Deans of the University of Pittsburgh Medical School, I took the precaution of clearly
stating my intentions and calling upon the silent witness of the most universally
trustworthy person I knew, Rabbi Yisroel Altein of the Chabad Lubovitch.s
On 01-06-08 I made the following sworn statement to Rabbi Altein:6
I have approached the Dean of the Medical School to talk about what was done
to me and why. I am 2000 miles away, have no legal representation, and have no
expectation of getting anything out of the Institution. I just want to be heard and to tell
the truth to the best of my ability...
What is at stake is my girls' souls. If I don't speak out, they will grow up believing
that evil rules the world, and that the self-interested pursuit of worldly power is the only
salvation. I need to leave a testament through my speech[es] and deeds that I believed
otherwise and was willing to act on my beliefs for their benefit...
What I need now are silent witnesses to follow my conversation with the powers of
the institution as I do my best to do what is right and speak the truth...
I believe that this is the most compassionate and practical way to end this
confrontation.
...and don't doubt that though I am weak and ignorant, I love and cherish my children as
much as you do yours.
Shalom,
Michael Ochoa

5 See Attached Exhibit C. Dialogue with the Deans or https://www.academia.edu/38126087/
Exhibit_C._Dialogue_with_the_Deans
6 See Exhibit H Questions or Aporia > Evidence > Data to be Authenticated or https://
www.academia.edu/22816277/Yamantaka_or_The_Mask_of_Sisera

5

♦
CONCLUSION
This petition for a writ of certiorari should thus be granted.
Then as I promised the late, Hon Antonin Scalia on 10-24-13:
“Finally, by merely allowing yourselves to be seen looking in my direction, you
will effect immediate, transformative good for all, while long being remembered as just
and wise and merciful.” -10-2U-13 U.S. Supreme Court 12-10508
Terras Irradient!

Michael Ramon Ochoa,
Petitioner, pro se
58 West Portal Ave #218
San Francisco, CA 94127
(415) 373-2172
michaelochoa@mac.com
Date: November 07, 2019

